Semi-Annual Report to Congress
Skip Navigation.
NARA
Blogs
Bookmark/Share
Contact Us
Search
Office of the Inspector General (OIG)
Home >
OIG >
Reports to Congress >Semi-Annual Report to Congress
OIG Reports
Reports and Managagement Letters
FY 2014
FY 2013
FY 2012
FY 2011
FY 2010
FY 2009
FY 2008
FY 2007
FY 2006
Semi-annual Reports to Congress
Annual Audit Plan
FAIR Act Report
Peer Review Reports
OIG Hotline
OIG Semi-Annual Report to Congress:
October 1, 2007 - March 31, 2008
Table of Contents
Foreword
Executive Summary
Introduction
Activities
Audits
Investigations
Top Ten Management Challenges
Reporting Requirements
Foreword
The National Archives and Records Administration's  (NARA) Office of Inspector General (OIG) maintains the same wide breadth of  responsibilities and duties as other OIGs, as defined in the Inspectors General  Act of 1978 (amended).  However, we have  one duty which is focused and specific to NARA - to help safeguard the records  of our Government residing at NARA and recover those records alienated from our  holdings.  In supporting this mission,  the news media represents a true ally by providing us with the opportunity to  inform and educate the American public about the risks we face as an institution  and the positive role citizens and other institutions can play in helping  mitigate this pernicious threat.
Thus, it was well received when Smithsonian  Magazine elected to research and ultimately run a story in the April 2008  edition focusing upon one of the NARA OIG's Archival Recovery Team's (ART)  significant successes.  The article,  entitled "To Catch a Thief," touches on all of the facets of the program.  It defines how average citizens can come to  our aid by reporting the sale of suspected Federal records and the professional  and skilled manner in which ART responds.   This was by any measure a successful operation, and I am glad to report  that this success continues.  Shortly  after the close of this reporting period we were able to recover two Ulysses S.  Grant- authored Presidential Pardons stolen from NARA in an earlier theft.
The OIG staff is passionate and committed in all  facets of our work, both audit and investigative.  I am proud of my employees for their tireless  devotion and numerous accomplishments.  I  would be remiss if I did not offer a thank you to Smithsonian Magazine and author Steve Twomey who crafted such an informative and constructive  article about the investigation and recovery of documents, and the ensuing successful  prosecution of the thief.
Paul Brachfeld
Inspector General
Top of Page
Executive Summary
This is the 39th Semiannual Report to the Congress summarizing the  activities and accomplishments of the National Archives and Records  Administration (NARA) Office of Inspector General (OIG). A summary of NARA's top challenges is provided under the  section titled "Top Ten Management Challenges." The highlights of our major  functions are summarized below.
Audits
In this reporting period, the Audit Division continued to examine the  security of NARA's Information Technology (IT)  systems and assess economy and efficiency of NARA's programs. This work had positive impact upon agency  operations and related controls in these critical areas. Recommendations  directed to NARA officials will, upon adoption,  translate into reduced risk for the agency and increased levels of security and  control over NARA's  financial assets, programs, and operations.
We issued the following audit reports during the reporting period:
Audit of the Process of  Safeguarding and Accounting for Presidential Library Artifacts. Our audit, performed at the request of United States  Senator Charles Grassley's office, sought to determine if the process of  accounting for and safeguarding Presidential library artifacts was  adequate. The audit revealed that (a)  NARA is not accounting for artifacts in a timely manner, (b) technical and  management controls over the automated database (i/O) used by NARA to manage  its collections need to be strengthened, (c) opportunities exist to deaccession  items that do not warrant long-term retention and drain scarce resources from  higher-priority artifacts, (d) some artifacts are not maintained in appropriate  space, and (e) NARA does not have a comprehensive list identifying "at risk"  artifacts in need of preservation.  Additionally, we found that while control weaknesses varied by library,  there was a near universal breakdown in controls at the Ronald Reagan Library  which has resulted in the library's inability to adequately account for and  safeguard its museum collections. The  weaknesses identified in this report contribute to NARA's preexisting material weaknesses in the  Preservation program and Collections Security.  We made five recommendations that, upon adoption, will help NARA better account for, safeguard, and preserve artifacts  entrusted to NARA.  Management concurred with all the recommendations. (Audit Report #08-01, dated October 26, 2007).
Audit of NARA's  Compliance with the Federal Information Security Management Act (FISMA) for Fiscal  Year 2007. Our audit, which  assessed the adequacy of controls over  information security and compliance with information security policies,  procedures, standards, and guidelines, found significant weaknesses that  can be attributed to deficiencies in the design and operation of internal  controls within the Office of Information Services (NH). Due to the significance of these weaknesses, NARA cannot be assured its  systems and data are adequately secured. As a result, information technology  (IT) security is a material weakness within NARA.  Some of the weaknesses we identified in our audit have been identified  in previous FISMA evaluations and in Audit Report 06-09, "Review of NARA's  Information Security Program," July   31, 2006. We  made 21 recommendations that, when implemented, will assist the agency in  establishing an information security program meeting FISMA and NIST  requirements. Management agreed  with our recommendations and initiated corrective action. (Audit Report #08-05, dated March 20, 2008.)
Audit of NARA's  Development of the Holdings Management System (HMS). This audit, which assessed the management and  decision-making process used by NARA in completing and approving the HMS proposal,  disclosed that the HMS system, while viable, was not developed in  accordance with agency policies and procedures.  NARA officials prepared the required  project proposal for HMS; however, NARA management,  we found, did not meet all requirements of NARA 801-2, Review of Information  Technology Investments, when planning for and approving the HMS project. Specifically, we found that the (a) HMS  Project Proposal was not in full compliance with Federal and NARA requirements;  (b) project risks were incorrectly and inadequately identified; (c) analysis of  alternatives, requirements, costs, and benefits were not sufficiently analyzed  prior to approval of the project; and (d) approval of the project was not in  accordance with NARA 801-2. In addition,  we found that while HMS fits into NARA's  enterprise architecture, NR's potential use of the Archives and Records Centers  Information System (ARCIS) for inventory and space management of hardcopy  permanent documents would not be in line with NARA's enterprise architecture and would  duplicate some HMS functions. Overall, we made six recommendations to improve NARA's project planning  and approval process. Management concurred with all the recommendations. (Audit Report #08-04, dated March 11, 2008.)
Audit of NARA's  Fiscal Year 2007 Financial Statements. Clifton Gunderson LLP (CG), a public accounting  firm, audited NARA's  consolidated balance sheet as of September 30, 2007, and the related consolidated  statements of net cost, changes in net position, financing, and the combined  statement of budgetary resources for the year then ended. CG issued NARA  an unqualified opinion on NARA's  FY 2007 financial statements. This is  the second year in a row NARA  received an unqualified opinion. For FY  2007, GC did report one significant deficiency in internal control over  financial reporting in the area of Information Technology resulting in 13  recommendations, which if implemented, should correct the matters  reported. CG disclosed no material  weaknesses and no instances of noncompliance with any provisions of the laws  and regulations they reviewed. (Audit  Report #08-03, dated November   20, 2007.)
Audit of NARA's  Purchase Card Program. Overall we found no abuse from  the sampled items we reviewed and are encouraged by management's oversight of the  Purchase Card Program. However,  opportunities exist to improve management controls and expand the program. Specifically, we found that (a) access to the  Citibank online system was not terminated when no longer needed, (b) OMB  Circular A-123, Appendix B, requirements were not fully addressed, (c)  procurement files were not adequately documented, (d) the NARA listing of  cardholders and approving officials was not accurate, (e) procurement requests  and transactions were not adequately supported, (f) accounting budget object  classes and accounting funds were misclassified, and (g) accountable property  guidance was needed. We made 20  recommendations for improvement. Management  concurred with our recommendations and began management actions. (Audit Report #08-02, dated November 14, 2007.)
Audit of NARA's  Fiscal Year 2007 Management Control Program. The OIG performs an  annual review to ensure that agency managers continuously monitor and improve  the effectiveness of internal controls associated with their programs. This continuous monitoring in conjunction  with other periodic evaluations provides the basis for the agency head's annual  assessment of, and report on, internal controls as required by Federal Managers'  Financial Integrity Act (FMFIA). Our  initial assessment of the agency's FY 2007 assurance statement, as conveyed in  our October 23, 2007,  memorandum, was that the statement was inaccurate and underreported risk  associated with NARA's  preservation and processing programs.  Subsequently, we performed a detailed review of individual office  assurance statements and found inconsistencies in conducting and reporting  internal control reviews. We found that many  of the staff offices did not conduct formal internal control evaluations in accordance  with their internal control plans, while other offices did not maintain  documentation of such reviews in accordance with agency guidance. We made three recommendations designed to address  the identified weaknesses. Management agreed with our recommendations and  initiated corrective action. (Audit  Report #08-06, dated March 7,   2008.)
Investigations
During  this reporting period, the Office of Investigations (OI) opened 12  investigations, closed 14 investigations, and recovered 122 records. The OI also received 69 complaints and closed  47 complaints. Additionally, the OI  conducted joint investigations with the FBI, the Department of Veterans Affairs  OIG, the General Services Administration OIG, the Department of Homeland  Security's Federal Protective Service, the Department of Transportation OIG, the  Army CID, and the U.S. Postal Inspection Services. At the close of the period, there remained 37  open complaints and 32 open investigations
The Office of Investigation completed investigations in areas including:
Theft       of Civil War records
Wrongful       disposal of accessioned records
Lost/stolen       patents
Lost/stolen       Presidential records
Lost/stolen       WWII maps
Improper       handling of classified Presidential records
Assault
Convenience       store theft
Threats       toward NARA       employee
Unauthorized       access and disclosure of tax returns
Our investigative staffing level remains inadequate to fully  discharge our duties. Presently, only  three special agents share the investigative burden that comes with a  3,000-person, 37-facility, nationwide agency that includes the Presidential library  system. While an additional agent  position has recently been authorized, our broad-based area of operations,  combined with our limited staffing, hampers our efforts in meeting our  statutory mission of preventing and detecting fraud and abuse in the programs  and operations of the National Archives and Records Administration. At present staffing levels, we are unable to  perform any proactive investigative activity.  Complex fraud, procurement, and other high-profile investigations cannot  be adequately staffed to insure timely and appropriate resolution. More mundane investigations are frequently  pushed back and sometimes allowed to go stale due to staffing responsibilities  with greater priority. But for the  impressive abilities of our assembled investigative team, the successes we have  achieved in the present environment would not have been possible.
Top of Page
Management Assistance
During the  reporting period, the OIG identified, and brought to management's attention,  concerns focusing upon the security and handling of classified holdings  received, maintained, and shipped by a NARA  facility. While conducting an  investigation, critical security and management control deficiencies were  identified at the facility. Our office  alerted senior management and the Information Security Oversight Office to  these deficiencies, and conducted a joint site visit with them. Management has since taken steps to begin  addressing these deficiencies. .
Distributed  a first-ever OIG press release when news media stories on an OIG audit of  Presidential library artifacts began mischaracterizing the audit findings.
Referred  12 cases from the Archival Recovery Team to the Office of General Counsel  pursuant to NARA Directive 1462. We also  met with General Counsel staff to refine the Archival Recovery Team process for  case referral and resolution.
Provided  assistance to the Office of Regional Records Services for a potential evidence  room to be used by Immigration Customs Enforcement (ICE) and other law  enforcement entities, by providing materials and advising on learning the needs  of the law enforcement entities so a chain of custody set up in these storage  facilities would meet the needs of NARA's  customers.
Conferred with NARA's  General Counsel and the Office of Special Counsel regarding a potential Hatch  Act violation by a NARA  employee.
Assisted in drafting a Request for Quote (RFQ)  for an independent audit contract for reviewing the agency's personally  identifiable information support services in line with Public Law 108-447 as  amended by Public Law 110-161.
Briefed  agency declassification clients on theft prevention and security of classified  material.
Supported agency efforts to publicize the  problem of record theft by cooperating with the Smithsonian magazine in an  article on the pilfering of historic documents. .
Assisted numerous citizens and clients of the  Archives who mistakenly contacted the NARA OIG by attempting to direct them to  the correct agency or organization to address their concerns.
Ensured a more open and accountable government by responding to Freedom of Information Act requests pertaining to OIG records.
Ensured  a more open and accountable government by responding to Freedom of Information  Act requests pertaining to OIG records.
Top of Page
Introduction
About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American  democracy by safeguarding and preserving the records of our Government,  ensuring the people can discover, use, and learn from this documentary  heritage. Further, the agency ensures  continuing access to the essential documentation of the rights of American  citizens and the actions of their government; and supports democracy, promotes  civic education, and facilitates historical understanding of our national  experience.
Background
NARA, by preserving the nation's documentary history,  serves as a public trust on which our democracy depends. It enables citizens to inspect for themselves  the record of what the Government has done.  It enables officials and agencies to review their actions and helps  citizens hold them accountable. It ensures continuing access to essential  evidence that documents the rights of American citizens, the actions of Federal  officials, and the national experience.
Federal records reflect and document America's development over more  than 200 years. They are great in  number, diverse in character, and rich in information. NARA's traditional holdings amount to 29  million cubic feet of records. These  holdings also include, among other things, architectural/engineering drawings,  maps, and charts; moving images and sound recordings; and photographic images. Additionally, NARA maintains 543,544 artifact items and 4.7  billion logical data records.
NARA  involves millions of people in its public programs, which include exhibitions,  tours, educational programs, film series, and genealogical workshops. In FY 2007, NARA had 34.9 online visits in addition to hosting  2.9 million traditional museum visitors, all while responding to 1.2 million  written requests from the public. NARA also publishes the  Federal Register and other legal and reference documents forming a vital link  between the Federal Government and those affected by its regulations and  actions. Through the National Historical Publications and Records Commission, NARA helps preserve and  publish non-Federal historical documents that also constitute an important part  of our national heritage. Additionally, NARA  administers 12 Presidential libraries preserving the papers and other  historical materials of all past Presidents since Herbert Hoover.
Resources
In FY 2008, NARA was appropriated an annual budget of approximately $411.1  million and 2,855 Full-time Equivalents (FTEs), which included appropriations  of $315 million for operations, $58 million for the Electronic Records Archives  (ERA) program, $28.6 million for repairs and restorations of facilities, and $7.5  million for grants. NARA operates 37 facilities nationwide.
About the Office of Inspector General (OIG)
The OIG Mission
The OIG's mission is to ensure that NARA  protects and preserves the items in our holdings, while safely providing the  American people with ready access to essential evidence of their rights and the  actions of their government. We  accomplish this by providing high-quality, objective audits and investigations;  and serving as an independent, internal advocate for economy, efficiency, and  effectiveness.
Background
The Inspector General Act of 1978, as amended, establishes the OIG's  independent role and general responsibilities. The Inspector General reports to both the  Archivist of the United    States and the Congress. The OIG evaluates NARA's performance, makes recommendations for  improvements, and follows up to ensure economical, efficient, and effective  operations and compliance with laws, policies, and regulations. In particular, the OIG
assesses the effectiveness, efficiency, and economy of NARA programs and operations
recommends improvements in policies and procedures to enhance operations and correct deficiencies
recommends cost savings through greater efficiency and economy of operations, alternative use of resources, and collection actions
investigates and recommends legal and management actions to correct fraud, waste, abuse, or mismanagement
Further, the OIG investigates criminal and administrative matters concerning the agency; helping ensure the safety and viability of NARA's holdings, customers, staff, and resources.
Resources
The FY 2008 OIG budget is approximately $2,736,000 for  operations. Prior to this reporting  period, the OIG was authorized 17 FTEs, but during the period the OIG received  authorization for two new FTEs: one for a new auditor position and another for  a special agent position. At the close  of the period the OIG was in the process of filling these two FTEs. When at full staffing, the OIG will have 19  FTEs: one Inspector General, three support staff, eight FTEs devoted to audits,  six FTEs devoted to investigations, and a counsel to the Inspector General.
Top of Page
Activities
Involvement in the Inspector General Community
President's Counsel on Integrity and Efficiency (PCIE) and Executive Counsel on Integrity and Efficiency (ECIE) Legislation Committee
The IG served as one of two ECIE representatives to the  Investigations Committee. The mission of the Investigations Committee  is to advise the IG community on issues involving investigative functions,  establishing investigative guidelines, and promoting best practices. The  Investigations Committee relies on its Investigations Advisory Subcommittee to  assist it in these efforts. The goal, therefore, is to continuously enhance  professionalism within our investigator community.
Council of Counsels to Inspectors General (CCIG)
The OIG counsel participated in meetings of the  CCIG and communicated regularly with fellow members. Multiple topics were raised, discussed, and  addressed including Federal records regulations, issues involving electronic  discovery, personal liability of government employees, issuing retired law  enforcement credentials, protecting privileged federal documents from civil  subpoena, civil actions by the DoJ, and information sharing in the law  enforcement community
Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued  to serve as an ECIE representative to the FAEC. During the period, the AIGA attended FAEC's  meeting to discuss topics such as financial statement audit issues, audit  training, opinion reports on internal controls, and information security.
Response to Congressional Items
Presidential Artifacts Audit
During the last reporting period, Senator  Charles E. Grassley, as Ranking Member of the Committee on Finance, with  oversight responsibility of the National Archives, requested a detailed audit  of the operations of NARA's  Presidential libraries to include the security of Presidential artifacts. Presidential artifacts include collections of  priceless and irreplaceable items, some of significant historical value. After completing fieldwork where OIG staff  visited six Presidential libraries, the final report, "Process of Accounting  for and Safeguarding Library Artifacts", was issued during this reporting  period. Our audit revealed several deficiencies, including a near  universal breakdown in controls at the Ronald Reagan Library, which resulted in  the library's inability to adequately account for and safeguard its museum  collections. Several recommendations  were provided, and management concurred with all of them. (Audit Report #08-01, dated October 26, 2007.)
U.S. House of Representatives Committee on Oversight and Government Reform Request for Information
Pursuant to a request from the Chairman of the Committee on Oversight and Government Reform, the OIG prepared and submitted a report detailing all recommendations made by the OIG since January 1, 2001 which had not been implemented by agency officials.  Management has consistently worked to implement OIG recommendations.   The 113 page response included all "open" audit recommendations, including those management disagreed with and those which management agreed with, but had not yet completed corrective action. Concerning the most recent audits in 2007 and 2008, it should be noted that NARA management has agreed with us on the majority of the audit findings.  However, they remain unimplemented because there has simply not been enough time for the process to work itself through to the point where the finding can be closed.
Third Party Privacy and Data Protection Review
In previous reports we disclosed that under the Consolidated Appropriations Act, 2005, Division H, Title V, Section 522 (Public Law 108-447), NARA was required to have an independent, third-party review of its privacy and data protection procedures to determine the accuracy of the description of the use of information in identifiable form; determine the effectiveness of privacy and data protection procedures; ensure compliance with stated privacy and data protection policies of the agency; and ensure that all technologies used to collect, use, store, and disclose information in identifiable form allow for continuous auditing of compliance with stated privacy policies and practices governing the collection, use, and distribution of information in the operation of the program.  While this statute required the Inspector General to contract with an independent third-party; no funds were ever allocated, and this review was never done.  During this reporting period, the law was amended by the Consolidated Appropriations Act, 2008, Division D, Title VII, Section 742 (Public Law 110-161), to delete the third-party contract requirement.  However, funds have now been made available, and the OIG is currently working with NARA officials to secure a third-party contractor to review these important areas and come into compliance with this mandate.
Top of Page
Audits
Overview
This period, we issued:
six  final audit reports
We completed fieldwork on the following assignment:
an audit of NARA's       Researcher Card Program to determine whether management controls are       adequate to ensure researcher information is accurate, verifiable, and       properly safeguarded
an audit of NARA's       Mail Management Program to determine whether controls are adequate and whether       NARA is in       compliance with Federal mail management policy and procedures
a  survey of NARA's  Configuration Management Program to assess risk associated with documenting,  managing, controlling, and tracking changes.
We also continued work on the following assignments:
an audit of ERA       contract invoices to determine if the invoice costs were reasonable and       supported by sufficient documentation
an audit of NARA's Central       Receiving Function to evaluate the effectiveness and efficiency of       management controls
an audit of Management Controls over Accounting for       Lost Property to assess whether management controls are adequate and       provide reasonable assurance that lost inventory is properly documented       and accounted for in NARA       records
an audit of NARA's Workers' Compensation Program       (WCP) to determine whether management controls are adequate for ensuring       the efficiency, effectiveness, and integrity of the program
an       audit of NARA's Vehicle Fleet Management to determine if fleet vehicles       are appropriately used and fleet resources are properly controlled.
Audit Summaries
Audit  of the Process of Safeguarding and Accounting for Presidential Library  Artifacts
The Presidential Library system is comprised of 12  Presidential Libraries nationwide. This  network of libraries is administered by the Office of Presidential Libraries, a  part of NARA, located in College Park, MD. These are not traditional libraries, but  rather repositories for preserving and making available historical materials  (e.g., papers, records, artifacts) of U.S. Presidents since Herbert  Hoover. Items received from the  President or his representatives, or acquired from other sources, are to be  added to the museum collection of the library, and responsible care is to be  provided for them at all times. Among  the holdings entrusted to these libraries are approximately 540,000 artifacts  maintained by the Presidential libraries' museum staffs. These items include gifts from foreign heads  of state, luminaries, and common citizens.  Holdings range from high-value items, including firearms, jewelry, and  works of art, coins, and currency, to tee shirts, trinkets, and  curiosities. Museum staff is  responsible for preserving and exhibiting artifacts to promote public  understanding of the Presidential administration, the history of the period,  and the career of the President.
The OIG performed an audit of the controls over artifacts to  determine if the process of accounting for and safeguarding Presidential library  artifacts was adequate. This audit was  identified in the OIG's FY 2006 annual work plan. In addition, as field work commenced, the OIG  received an inquiry from United States Senator Charles Grassley's office asking  us to conduct a detailed audit of the operations of Presidential libraries and  the activities of NARA  to protect and preserve these collections.
Our audit revealed opportunities to strengthen  accountability and control over artifacts.  We found that (a) NARA is not accounting for artifacts in a timely  manner, (b) technical and management controls over the automated database (i/O)  used by NARA to manage its collections need to be strengthened, (c)  opportunities exist to deaccession items that do not warrant long- term  retention and drain scarce resources from higher-priority artifacts, (d) some  artifacts are not maintained in appropriate space, and (e) NARA does not have a  comprehensive list identifying "at risk" artifacts in need of  preservation. As a result of these  weaknesses, NARA lacks assurance that (1)  current collections represent all of the artifacts with which NARA was originally entrusted, (2) missing  items will be identified in a timely manner, and (3) items receive the  conservation treatment necessary to ensure their continued preservation.
We also found that while control weaknesses varied by  library, there was a near universal breakdown in controls at the Ronald Reagan  Library, which has resulted in the library's inability to adequately account  for and safeguard its museum collections.  Of the approximately 100,000 artifacts maintained by the Ronald Reagan  Library, we found the library had the information necessary to locate less than  20 percent of them. Based on sampling  performed, we were unable to locate and adequately account for 13 items, one of  them a vase noted as being located during the FY 2006 inventory of high-value  objects. At the time of this audit, the  OIG investigative unit was responding to allegations of theft of artifacts  specific to the Reagan Library. This  investigation was being adversely impacted due to internal control deficiencies  cited in the body of the full audit report.  Finally, we noted deteriorating items, broken picture frames and glass,  and valuable vases and sculptures at risk of damage due to inappropriate  storage in a locale noted for the potential of seismic activity.
Our report contained five recommendations, some containing  sub-recommendations. Management  concurred with the findings and recommendations and has undertaken action to  address the findings. (Audit Report #08-01,  dated October 26, 2007.)
Audit of NARA's Compliance with the Federal Information Security Management Act (FISMA) for Fiscal Year 2007
The overall audit  objective was to assess the adequacy of controls over information security and  compliance with information security policies, procedures, standards, and  guidelines. Specifically, we determined  the effectiveness of the NARA  information security program by testing the information security policies,  procedures, and practices over a representative sample of the agency's systems.
To accomplish our  objective, we determined whether (a) NARA had plans and procedures to ensure  continuity of operations for information systems supporting the operations and  assets of the agency; (b) NARA had a certification and accreditation process  consistent with Federal requirements; (c) NARA had procedures for detecting,  reporting, and responding to security incidents; (d) NARA completed Privacy  Impact Assessments for all systems identified as needing one; (e) NARA provided  IT security awareness training for all personnel, including contractors,  volunteers, Foundation staff, and any other users of information systems  supporting the operations and assets of NARA.
Some of the weaknesses  we identified in our audit were identified in previous FISMA evaluations and in  Audit Report 06-09, "Review of NARA's Information Security Program," July 31, 2006. We continued to find significant weaknesses that  can be attributed to deficiencies in the design and operation of internal  controls within the Office of Information Services. Due to the significance of these weaknesses, NARA cannot be assured its  systems and data are adequately secured. Strengthening management controls over the  information security program by revising policy and procedures and then  enforcing compliance with the procedures will help to ensure that control  weaknesses are corrected and NARA  complies with applicable laws and regulations in the future.
We made 21  recommendations that, when implemented, will assist the agency in establishing  an information security program meeting FISMA and NIST requirements. Management agreed with all our  recommendations. (Audit Report # 08-05,  dated March 20, 2008.)
Audit of NARA's Development of the Holdings Management System (HMS)
The OIG evaluated the development of the Holdings Management  System (HMS) to assess the management and decision-making process used by NARA in completing and  approving the HMS proposal. To  accomplish our objectives, we evaluated whether (a) Federal and NARA capital planning  policies and procedures were followed; (b) analysis of alternatives and  costs/benefits had been adequately performed; (c) requirement analysis had been  executed; (d) project plans had been fully developed; and (e) performance metrics  have been established.
Our review found that the HMS system, while viable, was not  developed in accordance with agency policies and procedures. While NARA  officials did prepare the required project proposal for HMS, NARA  management we found did not meet all the requirements of NARA 801-2, Review of Information  Technology Investments, when planning for and approving the HMS project. Specifically, we found that the (a) HMS  Project Proposal was not in full compliance with Federal and NARA requirements;  (b) project risks were incorrectly and inadequately identified; (c) analysis of  alternatives, requirements, costs, and benefits were not sufficiently analyzed  prior to approval of the project; and (d) approval of project was not in  accordance with NARA 801-2. In addition,  we found that while HMS fits into NARA's  enterprise architecture, NR's potential use of the Archives and Records Centers  Information System (ARCIS) for inventory and space management of hardcopy  permanent documents would not be in line with NARA's enterprise architecture and would  duplicate some HMS functions.
Using HMS as an example, our audit identified several  improvements to be made in NARA's  Information Technology (IT) Capital Investment Process. Overall, we made six recommendations to  improve NARA's  project planning and approval process.  Management agreed with all recommendations. (Audit Report # 08-04, dated March 11, 2008.)
Audit of NARA's Fiscal Year 2007 Financial Statements
Clifton  Gunderson LLP (CG), an independent public accounting firm, examined and  reported on NARA's  consolidated balance sheet as of September 30, 2007, and the related consolidated  statements of net cost, changes in net position, and combined statement of  budgetary resources for the year then ended.
CG issued an unqualified opinion of the FY 2007 and 2006  financial statements. CG reported one  significant deficiency in internal control over financial reporting in the area  of Information Technology resulting in 13 recommendations, which if  implemented, should correct the matters reported. CG disclosed no material weaknesses and no  instances of noncompliance with certain provisions of laws and regulations. Management concurred with CG's assessment and  agreed to initiate corrective action.
We monitor CG's performance of the audit  to ensure the audit is conducted in accordance with the terms of the contract  and in compliance with GAO issued Government  Auditing Standards and other authoritative  references, such as OMB Bulletin No. 07-04, Audit  Requirements for Federal Financial Statements. We are involved in the  planning, performance, and reporting phases of the audit through participation  in key meetings, discussion of audit issues, and reviewing of CG's work papers  and reports. Our review disclosed no instances wherein CG did not comply, in  all material respects, with the contract or Government Auditing Standards. (Audit  Report #08-03, dated November   20, 2007.)
Audit of NARA's Purchase Card Program
The objectives of the Purchase Card Program audit were  to assess (1) compliance with laws and regulations, (2) efficiency of  operations, and (3) adequacy of management controls to help prevent fraud, waste,  and abuse by cardholders or others who attempt to manipulate the program.
The purpose of the Federal Purchase Card Program is to minimize  the paperwork needed to make purchases, using proper authorization. Although  purchase cards provide efficiency and savings to the Government, Purchase Card  Programs are high-risk because they allow the same individual to order, pay  for, and receive goods and services. This offers the potential for fraud,  abuse, and improper transactions if not carefully monitored.
From November   24, 2005, through November   24, 2006, NARA  processed 21,367 transactions at a value of $11,479,509. Opportunities exist to improve management  controls and expand the Purchase Card Program.  Specifically, we found the following:
Access to the Citibank Online Systems needs to  be updated to prevent users who no longer need access from accessing the purchase  card related data, and to ensure proper authority of users.
NARA's  Purchase Charge Card Management Plan (Plan) does not address all the elements  required by OMB Circular A-123, Appendix B, Improving the Management of Government Charge Card Programs.
Procurement files maintained by the Acquisitions  Service Division lacked documentation supporting delegation of authority,  spending limits, and training.
NARA's  listing of cardholders and approving officials maintained by the Finance Branch  differs in spending limits, cardholders, and approving officials from those  reported in the Citibank Online System.  We found two approving officials who were also cardholders within the  system hierarchy and could potentially approve their own transactions.
In our test of a sample of transactions, we  found instances wherein 1) sufficient documentation did not exist supporting  procurement requests and/or transactions, 2) transactions over the  micro-purchase threshold were not matched to purchase orders, 3) cardholders  did not classify expenditures to the most appropriate budget object class code  or fund, 4) accountable property was not recorded in NARA's Personal Property  Management System, and 5) split purchases occurred.
We made 20 recommendations that, when implemented by  management, will assist the agency in enhancing the purchase card program to  meet OMB Circular A-123, Appendix B, requirements. Management concurred with  all 20 of our recommendations and began implementation efforts. (Audit Report #08-02, dated November 14, 2007.)
Audit of NARA's Fiscal Year 2007 Management Control Program
The Federal Managers' Financial Integrity Act (FMFIA) of  1982 (Public Law 97-255) requires ongoing evaluations and reports of the  adequacy of internal accounting and administrative control of each executive  agency. The Act requires the head of  each agency to annually prepare a statement on the adequacy of the agency's  systems of internal accounting and administrative control. OMB Circular A-123 (Revised), Management's Responsibility for Internal  Control, contains guidance for implementing FMFIA and requires management  to annually report on internal control in its Performance and Accountability  Report (PAR), including a report on identified material weaknesses and corrective  actions. It also provides that the  agency head, in preparing the annual assurance statement, should consider input  from the Office of Inspector General.
Annually, the OIG performs a review  to ensure that agency managers continuously monitor and improve the  effectiveness of internal controls associated with their programs. This continuous monitoring in conjunction  with other periodic evaluations provides the basis for the agency head's annual  assessment of, and report on, internal controls as required by FMFIA.
Our initial assessment of the agency's FY 2007 assurance  statement, as conveyed in an October   23, 2007, memorandum to the Archivist of the United States, determined that the statement was  inaccurate and underreported risk associated with NARA's preservation and processing  programs.
Subsequently, we performed a detailed review of individual  office assurance statements and found inconsistencies in conducting and  reporting internal control reviews. We  found that many of the staff offices did not conduct formal internal control  evaluations in accordance with their internal control plans, while other  offices did not maintain documentation of such reviews in accordance with  agency guidance. This was the result of  a lack of familiarity with NARA  114, an incomplete understanding of internal controls, and management control  plans that were improperly or too narrowly scoped. Due to a lack of, improperly documented, or  improperly scoped internal control reviews, NARA inadequately identifies and manages inappropriately  its assurance risks.
We made three recommendations. Management concurred with our findings and  recommendations. (Audit Report #08-06, dated November 14, 2007.)
Investigations
Investigations Overview
During this reporting period, the Office of Investigations (OI) opened 12 investigations, closed 14 investigations, and recovered 122 records.  The OI also received 69 complaints and closed 47 complaints.  Additionally, the OI conducted joint investigations with the FBI, the Department of Veterans Affairs OIG, the General Services Administration OIG, the Department of Homeland Security's Federal Protective Service, the Department of Transportation OIG, the Army CID, and the U.S. Postal Inspection Services.  At the close of the period, there remained 37 open complaints and 32 open investigations.
Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
An active duty sergeant in the U.S. Army was found to have  removed multiple Official Military Personnel Folders from the National Personnel  Records Center  in St. Louis, MO.  Upon recovery of the records, the OIG referred the case to the  service member's command. The  service member has transferred out of St.    Louis. The case  is under review by the U.S. Army Office of the Judge Advocate General.
Violation of NARA Security Policy
Several researchers were provided with special access to classified information  to be reviewed in a NARA Classified Research Room, which is also a Sensitive  Compartmented Information Facility or SCIF.  While reviewing this information, multiple external contacts were allowed  to be made from within the SCIF via the use of cell phones by the researchers  in violation of NARA  security policies. This case was  declined for prosecution and is currently under review by NARA for potential administrative  action.
Improper Access to  Classified Material
A former NARA employee, now a  volunteer and contractor, was provided inappropriate access to classified materials,  during which he improperly removed copies of these materials in violation of NARA's classified information security policy. This investigation revealed that  the individual was reviewing classified material in an attempt to secure  business for his employer. While the individual  possessed a security clearance, he did not have a need to know the information  he accessed. This access violated NARA's policies and  procedures governing classified information. This case was declined for prosecution and is  currently under review by NARA  for potential administrative action.
Top of Page
New Investigation Highlights
Missing  World War II Maps
Target charts for the Hiroshima  and Nagasaki bombing missions had been checked  out of NARA by  the Department of Defense in 1962. The  maps were never returned to the Archives, are considered missing, and will be  posted on the NARA OIG missing documents web page.
Violation  of the Taxpayer Browsing Protection Act
A joint investigation with the  Treasury Inspector General for Tax Administration (TIGTA) revealed that certain  NARA employees  had wrongfully inspected and disclosed the tax return information of various  famous individuals. Disclosures were then  made to persons not having a need to know and not employed with the U.S.  Federal Government. The case was  declined for prosecution. Two employees  were suspended and one was issued a counseling letter.
Improper  Handling of Classified Material
A Reagan administration  official left Federal service with 193 boxes of Presidential records. He ultimately contacted NARA to turn over this material to the  Archives. Archives staff began a review  of the material and discovered two classified documents at which point the OIG  was contacted. The OIG, working jointly  with FBI, recovered the material from a storage facility in Virginia.  A document-by-document review, conducted by the OIG, NARA staff, and the FBI, revealed 191  classified documents. The classified  material was secured in a Sensitive Compartmented Information Facility  (SCIF). The Department of Justice  declined prosecution.
Missing  Wright Brothers' Flyer Patent
This investigation substantiated  that the original 1903 Wright  Brothers' Flyer Patent file is missing.  Copies of the patent file are maintained in NARA's Treasure Vault. The original patent file had been loaned to  the Smithsonian for an exhibition in 1980.  Upon its return to NARA,  it subsequently disappeared, and is considered missing. It will be posted on the NARA OIG  missing documents web page.
Suspicious  Activity at Presidential Library
NARA staff at a Presidential  library reported  two men acting in a suspicious manner in the museum complex. The men were observed via the video surveillance  system and appeared focused on the structural and security aspects of the  facility, rather than on the exhibits. The  men were observed throughout their visit and left the parking area in a rental  vehicle. Both individuals  were interviewed. No criminal or  administrative violations were substantiated, and neither individual was deemed  to pose a threat to NARA.
Assault
A contract security guard at NARA  assaulted his supervisor inflicting minor injuries. The Department of Homeland Security Federal Protective  Service responded to the incident and arrested the guard. The guard was removed from the contract and  terminated by the contractor. He plead  guilty to simple assault and was  sentenced to supervised  probation for one year and has to attend anger management classes.
False Claims
A subject contractor submitted claims for hours worked by unqualified  personnel. This violated the terms of  the contract with NARA. An assistant United States attorney declined the  case for criminal prosecution. A United States  civil attorney is considering the case for action.
Other Office of Investigation Activity
Archival Recovery Team  (ART)
During this period, the Archival Recovery Team fielded 21 new complaints,  and 14 complaints and 8 ongoing investigations were closed. In addition, 12 ART noncriminal cases were  referred to NARA  for a recovery determination. At the  close of the period, 29 ART complaints and 8 ART investigations remained open.
As part of the ART outreach program, Office of Investigations staff  attended the following exhibitions to educate the public about the NARA OIG and  the ART:
In November 2007, ART members attended and displayed a table at       the Autumn Gettysburg Civil War Show in Pennsylvania.
In November 2007, ART members attended and displayed a table at       the 27th Annual Capital of the Confederacy Civil War Show in Richmond, VA.
In December 2007, ART members attended and displayed a table at       the Middle Tennessee Civil War Show in Nashville, Tennessee. In addition, ART members attended the       Heritage Auctions display near the show.
In December 2007, ART members attended the Second Annual       Washington Capital Area Autograph and Manuscript Show.
In March 2008, an ART member spoke at the 2008 Annual Conference       for the Society for History in the Federal Government. The subject matter was "Saving       Government History." The       presentation was titled "Archival Recovery Team - Pursuit of Stolen       Treasure."
Archivist's Special  Achievement Award
Special Agent Kelly Maltagliati received a Special Achievement Award from  the Archivist of the United    States for outstanding achievement in the  investigation and recovery of Civil War records stolen from the National  Archives. Her investigation led to a  15-month incarceration of the subject, and the recovery of 163 Civil War  records stolen from the NARA-Mid Atlantic Region (Philadelphia).
Computer Crimes Unit
The Office of  Investigations continues to support the development of its computer forensics  lab. During this period, we sent staff  to the Defense Cyber Investigations   Training Academy's  (DCITA) Online Undercover Techniques (OUT) course. Subsequently, we configured a workstation  dedicated to online reconnaissance and online undercover work. The lab and our computer forensic examiner routinely  supported a wide variety of criminal investigations throughout the reporting  period.
OIG HOTLINE
The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and mismanagement to the OIG.  In addition to receiving telephone calls at a toll-free Hotline number and letters to the Hotline post office box, we also accept e-mail communication from NARA's internal network or the Internet through the Hotline e-mail system.  Walk-ins are always welcome.  Visit http://www.archives.gov/oig/ for more information, or contact us:
By telephone -
Washington, DC Metro area: (301) 837-3500
Toll-free and outside the Washington, DC Metro area: (800) 786-2551
By mail -
NARA OIG Hotline
P.O. Box 1821
Hyattsville, MD 20788-0821
By e-mail - oig.hotline@nara.gov
The  Office of Investigations promptly and  carefully reviews calls, letters, and e-mail to the Hotline. We investigate  allegations of suspected criminal activity or civil fraud and conduct  preliminary inquiries on noncriminal matters to determine the proper  disposition. Where appropriate, referrals are made to the OIG audit staff, NARA management, or  external authorities.
Hotline contacts are captured as complaints in the Office of  Investigations. The following table  summarizes complaints received and Hotline activity for this reporting period:
Complaints received
69
Complaints closed pending response from NARA
15
Complaints closed final
32
Complaints Open to Investigations
10
Top of Page
Top Ten Management Challenges
Overview
Under the authority of the Inspector General Act, the NARA  OIG conducts and supervises independent audits, investigations, and other  reviews to promote economy, efficiency, and effectiveness and to prevent and  detect fraud, waste, and mismanagement.  To fulfill that mission and help NARA  achieve its strategic goals, we have aligned our programs to focus on areas we  believe represent the agency's most significant challenges. We have identified those areas as NARA's top ten management  challenges, and they are listed below.
1. Electronic Records Archives (ERA)
NARA's  challenge is to build a system that will accommodate past, present, and future  formats of electronic records. The ERA Program did not meet its September 2007 goal  of producing an initial operating capability for ERA with planned incremental  improvements that will eventually result in full system capability. Instead, the ERA program has experienced  delivery delays, budgeting problems, and contractor staffing problems. Now the program has shifted to a series of  "drops," implementing the software in smaller increments, with an initial  operating capacity pushed back to late June 2008. Further, the system component to handle White  House e-mails has now been segregated out and is being pursued down a separate  line of programming. The success of this  mission-critical program is uncertain.  The challenge will be to deliver and maintain a functional ERA system  that will preserve electronic records for as long as needed.
2. Electronic Records Management (ERM)
NARA  directs the Electronic Records Management (ERM) initiative, one of 24  Government-wide initiatives. The ERM initiative provides guidance to agencies  in managing and transferring to NARA,  in an increasing variety of data types and formats, their permanent electronic  records. NARA and its Government partners are  challenged with determining how to manage electronic records, and how to make  ERM and e-Government work more effectively.
3. Improving Records Management
Part of NARA's  mission is to ensure that Federal officials and the American public have access  to essential evidence and documentation as soon as legally possible. NARA  must work with Federal agencies to make scheduling, appraisal, and accessioning  processes more effective and timely. The  challenge is how best to accomplish this component of our overall mission and  identify and react to agencies with critical records management needs.
4. Information  Technology Security
Information technology continues to present major challenges  for NARA. The authenticity and reliability of our  electronic records and information technology systems are only as good as our  IT security infrastructure. Each year, the risks and challenges to IT security  continue to evolve. NARA  must ensure the security of its data and systems or risk undermining the  agency's credibility and ability to carry out its mission.
5. Expanding Public Access to Records
In a democracy, the records of its archives belong to its  citizens. NARA's  challenge is to more aggressively inform and educate our customers about the  services we offer and the essential documentation to which we can provide  access. Of critical importance is NARA's role in ensuring the timeliness and integrity of both  the process for accessioning records into our collection and the process of  declassifying classified material held at NARA.
6. Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, "Disposition  of Federal Records," Subpart K, "Facility Standards for Records Storage  Facilities," requires all facilities housing Federal records to meet defined  physical and environmental requirements by FY 2009. NARA's  challenge is to meet physical storage space needs while ensuring compliance  with these regulations internally as well as by other agencies housing Federal  records.
7. Preservation Needs of Records
As in the case of our national infrastructure (bridges,  sewer systems, etc.), NARA  holdings grow older daily and are degrading.  The Archivist previously identified preservation as a material weakness  under the Federal Managers' Financial Integrity Act (FMFIA) reporting  process. However, in FY 2006, preservation  was downgraded to a reportable condition.  The OIG strongly disagrees with this.  Preserving and providing access to records is a fundamental element of NARA's duties to the  country. The current backlog of records  needing preservation is growing. NARA is challenged to  address this backlog and future preservation needs.
8. Improving Project  Management
Effective project management is essential to obtaining the  right equipment and systems to accomplish NARA's  mission. Complex and high-dollar  contracts require multiple program managers, often with varying types of  expertise. NARA is challenged with planning projects,  developing adequately defined requirements, analysis and testing to support  acquisition and deployment of the systems, and oversight to ensure effective or  efficient results within costs. These projects  must be managed and tracked to ensure that cost, schedule, and performance  goals are met.
9. Physical and Holdings Security
The Archivist has identified security of collections as a  material weakness under the FMFIA reporting process. NARA  must maintain adequate levels of security to ensure the safety and integrity of  persons and holdings within our facilities. This is especially critical in  light of the security realities facing this nation and the risks that our holdings  may be pilfered, defaced, or destroyed by fire or other man-made and natural  disasters.
10.  Strengthening  Human Capital
The GAO has identified human capital as a Government-wide  high risk. NARA's  challenge is to adequately assess its human capital needs in order to effectively  recruit, retain, and train people with the technological understanding and  content knowledge NARA  needs for future success.
Top of Page
Reporting Requirements
STATISTICAL SUMMARY OF
INVESTIGATIONS
Investigative Workload
Complaints received this reporting period
69
Investigations pending at the beginning of the reporting period
34
Investigations opened this reporting period
12
Investigations closed this reporting
period
14
Investigations carried forward this reporting
period
32
Categories of Closed
Investigations
Fraud
0
Conflict of Interest
0
Contracting Irregularities
0
Misconduct
2
Larceny (theft)
7
Other
5
Investigative Results
Cases referred - accepted for prosecution
7
Cases referred - declined for prosecution
1
Cases referred - pending prosecutive decision
3
Arrests
1
Indictments and informations
2
Convictions
4
Fines, restitutions, judgments,, and other civil and administrative recoveries
0
NARA holdings recovered
122
Administrative Remedies
Employee(s) terminated
0
Employee(s) resigned in lieu of termination
1
Employee(s) suspended
2
Employee(s) given letter of reprimand/warned/counseled
2
Employees taking a reduction in grade in lieu of administrative action
0
Contractor (s) removed
1
SUMMARY OF PROSECUTORIAL REFERRALS
Requirement 5(a) (4)
Accepted for Prosecution
Communicating Threats
A NARA  employee who had been terminated subsequently began making threatening  telephone calls to his former supervisor.  The local district attorney's office accepted the case for criminal  prosecution. The subject was found  guilty of menacing and telephone harassment and was sentenced to a $500  fine and two years of unsupervised probation with an order of no contact with  his former supervisor.
Fraudulent  Receipt of Veteran's Benefits
Subject is alleged to have manipulated his  service verification, performed by NARA,  in order to fraudulently receive veteran's benefits. Subject has been indicted, and an assistant United States  attorney has accepted the case for prosecution.
Assault
A contract security guard at NARA assaulted his  supervisor inflicting minor injuries.  The Department of Homeland Security Federal Protective Service responded  to the incident and arrested the guard.  The guard was removed from the contract and terminated by the  contractor. He plead guilty to simple  assault, was sentenced to supervised probation for one year,  and has to attend anger management classes.
Declined for Prosecution
Suitability
A NARA  contractor was removed from a contract for providing false information on his  Declaration for Federal Employment. The  individual was under criminal investigation at his previous agency, and his  misconduct there had been substantiated.  The contractor subsequently lied to the NARA OIG regarding his prior  misconduct and was removed from the contract.  An assistant United    States attorney declined to prosecute this  case.
Pending  Prosecutorial Determination
Theft of Funds
Subject used a Presidential Library Foundation's credit card to  purchase $70,000 to $140,000 of personal items and services. An assistant United States attorney is  considering the case for prosecution.
Workers' Compensation Fraud
Subject is alleged to have falsely claimed an  on-the-job injury in order to wrongfully receive benefits under the Federal  Employees' Compensation Act. An assistant  United States  attorney is considering the case for prosecution.
Requirement 5(a)(6)LIST OF REPORTS ISSUED
Report No.
Title
Date
Questioned Costs
Un-supported Costs
Funds Put to Better Use
08-01
Audit  of the Process of Safeguarding and  Accounting for Presidential Library Artifacts
10/26/2007
0
0
0
08-02
Audit  of NARA's  Purchase Card Program
11/14/2007
0
0
0
08-03
Audit  of NARA's FY  2007 Financial Statements
11/20/2007
0
0
0
08-04
Audit  of NARA's  Development of the Holdings Management System
03/11/2008
0
0
0
08-05
Audit  of NARA's  Compliance with the Federal Information Security Management Act for FY 2007
03/20/2008
0
0
0
08-06
Audit  of NARA's  Fiscal Year 2007 Management Control Program
03/07/2008
0
0
0
AUDIT REPORT(S) WITH QUESTIONED COSTS
Category
Number of
Reports
DOLLAR VALUE
QuestionedCosts
UnsupportedCosts
A. For which no management decision has been
made by the commencement of the reporting period
1
$236,335
$0
B. Which were issued during the reporting
period
0
$0
$0
Subtotals (A + B)
1
$236,335
$0
C. For which a management decision has been
made during the reporting period
1
$236,335
$0
(i) dollar value of disallowed
cost
0
$0
$0
(ii) dollar value of costs not
disallowed
1
$236,235
$0
D. For which no management decision has been
made by the end of the reporting period
0
$0
$0
E. For which no management decision was made
within 6 months
0
$0
$0
AUDITS REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
Requirement 5(a)(9)
CATEGORY
NUMBER
DOLLAR VALUE
A. For which no management decision has been made
by the commencement of the reporting period
0
$0
B. Which were issued during the reporting
period
0
0
Subtotals (A + B)
0
0
C. For which a management decision has been made
during the reporting period
0
0
(i) dollar value of recommendations that were
agreed to by management
0
0
Based on proposed management
action
0
0
Based on proposed legislative
action
0
0
(ii) dollar value of recommendations that were not
agreed to by management
0
0
D. For which no management decision has been made
by the end of the reporting period
0
0
E. For which no management decision was made
within 6 months of issuance
0
0
REQUIREMENT
CATEGORY
SUMMARY
5(a)(3)
Prior significant recommendations
unimplemented
None
5(a)(4)
Summary of prior referrals
None
5(a)(5)
Information or assistance refused
None
5(a)(10)
Prior audit reports unresolved
None
5(a)(11)
Significant revised management decisions
None
5(a)(12)
Significant revised management decisions with
which the OIG disagreed
None
Top of Page
PDF files require the free Adobe Reader.
More information on Adobe Acrobat PDF files is available on our Accessibility page.
Office of the Inspector General (OIG) >
Connect With Us
Blogs
Facebook
Flickr
RSS Feeds
Twitter
YouTube
More...
Information For…
Citizen Archivists
Federal Employees
Genealogists
Members of Congress
Preservation
Records Managers
The Press
Publications
Federal Register
Free Publications
Prologue Magazine
Purchase Publications
More…
Orgs & Offices
Center for Legislative Archives
Federal Records Center
Office of the Inspector General
Presidential Libraries
More…
About Us
What is the National Archives?
Doing Business with Us
Plans and Reports
Open Government
Our Plain Language Activities
I  Want To...
Get My Military Record
Plan a Research Visit
Visit the Museum
View Online Exhibits
Apply for a Grant
Participate
Attend an Event
Donate to the Archives
Work at the Archives
Volunteer at the Archives
Resources
A-Z Index
America's Founding Docs
Contact Us
En Español
FAQs
Forms
Contact Us
Accessibility
Privacy Policy
Freedom of Information Act
No FEAR Act
USA.gov
The U.S. National Archives and Records Administration
1-86-NARA-NARA or 1-866-272-6272
.